                         U.S. Department of Agriculture

                            Office of Inspector General
                                      Southeast Region




              Audit Report

              Security Over
Animal and Plant Health Inspection Service’s
        Owned and Leased Aircraft




                             Report No. 33601-1-AT
                                  September 2004
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington, D.C. 20250




DATE:        September 14, 2004

REPLY TO
ATTN OF: 33601-1-At

SUBJECT:     Security Over Animal and Plant Health Inspection Service’s
             Owned and Leased Aircraft

TO:          W. Ron DeHaven
             Administrator
             Animal and Plant Health Inspection Service

ATTN:        William Hudnall
             Deputy Administrator for Marketing Regulatory Program
                Business Services


This report presents the results of the subject audit. Your response dated September 3, 2004, to
the draft report is included as exhibit A, with excerpts and the Office of Inspector General’s
position incorporated into the relevant Findings and Recommendations section of the report.
Based on your response, we have accepted management decisions on Recommendations
Nos. 1 and 2. For Recommendation No. 3, we will need the estimated timeframes for
completing the implementation of security measures at all Animal and Plant Health Inspection
Service locations.

Follow your internal agency procedures in forwarding final action correspondence to the Office
of the Chief Financial Officer. Final action on the management decisions should be completed
within 1 year of the date of this report to preclude being listed in the Department’s Performance
and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
audit.



/s/
ROBERT W. YOUNG
Assistant Inspector General
    for Audit
Executive Summary
Security Over Animal and Plant Health Inspection Service’s Owned and Leased
Aircraft (Audit Report No. 33601-1-AT)

Results in Brief   In its effort to assist the Government in strengthening homeland security
                   since September 11, 2001, the Office of Inspector General continues to
                   review those assets of the U.S. Department of Agriculture (USDA) that could
                   be vulnerable to terrorist attacks or could enable terrorists to mount attacks
                   within this country. As part of this effort, we reviewed the Animal and Plant
                   Health Inspection Service’s (APHIS) security controls for aircraft owned or
                   operated by the Wildlife Services (WS) and the Plant Protection and
                   Quarantine (PPQ) mission. APHIS has a total of 35 aircraft located
                   throughout the country at 26 general aviation airports and airfields and at
                   1 Federal airbase.

                   Although APHIS has taken some steps towards mitigating risks, our review
                   disclosed that its aircraft were vulnerable to theft because the agency had not
                   developed standard policies and procedures for securing aircraft and had not
                   performed an overall assessment of risks related to the potential for theft.
                   Agency officials said they had not developed policies or procedures for
                   securing aircraft because they were waiting for USDA to issue formal
                   guidance. WS had no written guidance for securing its 28 mission aircraft at
                   official duty stations and offsite locations. PPQ officials stated that they were
                   drafting policies and procedures to address facility and aircraft security at the
                   airbase storing its seven aircraft.

                   USDA issued the Integrated Physical Security Standards and Procedures
                   Handbook on November 14, 2003. Chapter 2, on aviation security,
                   disseminates procedures for mitigating risks and threats associated with
                   USDA aviation operations. APHIS aviation officials were not aware of the
                   formal issuance of the handbook until May 4, 2004, because they had not
                   received notice from the Department. One aviation official acknowledged
                   that there were security measures outlined in the departmental guidance that
                   could be used in establishing security for APHIS aircraft. However, he felt
                   that much of the guidance could not be adapted to general aviation airports.
                   APHIS is currently working on a manual to address security for all the
                   agency’s assets, but has not begun working on the section for aircraft
                   security. The agency plans to complete the full security manual by
                   December 31, 2004.

                   WS employees determined what security measures were needed at particular
                   sites based on an individual understanding of need rather than on a consistent,
                   unbiased assessment of the actual risks posed to the aircraft. We found that
                   WS aircraft were not always equipped with appropriate locking mechanisms,
                   access to the aircraft was not always restricted, and intrusion devices were

USDA/OIG-A/33601-1-AT                                                                        Page i
                               not always effectively utilized. On January 12, 2001, the Interagency
                               Committee for Aviation Policy1 (ICAP) published a Guide for the Conduct of
                               Aviation Resources Management Surveys, which provided agencies with a
                               tool to assist in tailoring aircraft security programs to their particular needs.
                               This guide addresses critical risk areas for aviation security. However, WS
                               did not use the guide to assess its aircraft security. PPQ conducted a
                               comprehensive risk assessment and implemented most of the recommended
                               actions such as installing alarms sensitive to glass breaking, connecting
                               alarms to the guard shack, and installing low-light closed circuit television
                               cameras. PPQ had not implemented recommendations to install security bars
                               on the windows and replace the main entry door with a security door having a
                               card reader and electronic lock.            These recommendations were not
                               implemented because of lack of funding.

                               We noted that neither WS nor PPQ had established procedures for securing
                               aircraft while at temporary work locations or for reporting to APHIS
                               headquarters or responsible officials such incidents as missing aircraft,
                               unauthorized entry, threatening telephone calls, or vandalism.

                               According to recent Government Accountability Office (GAO) testimony,2
                               the Transportation Security Administration, tasked with establishing national
                               policy for all forms of transportation, has taken only limited action to
                               improve general aviation security, leaving it far more vulnerable than
                               commercial aviation. In May 2003, the Department of Homeland Security
                               issued an advisory3 to general aviation pilots and airports to secure
                               unattended aircraft to prevent unauthorized use and report unusual or
                               suspicious activities. The advisory warned that terrorists might mount attacks
                               using general aviation aircraft due to their availability, their less stringent
                               protective measures, and their destructive potential. Because of the
                               vulnerability of general aviation airports and airstrips, it is important that
                               APHIS consider security as a major part of its procedures and responsibilities
                               regarding its aviation operations.

Recommendations
in Brief                       We recommend that APHIS develop written policies and procedures for the
                               security of mission aircraft based on an overall risk assessment of
                               vulnerabilities related to theft or unauthorized use. The policies and
                               procedures should provide a consistent method of appraising all aspects of
1
  Established by the General Services Administration in 1989, ICAP is made up of 18 Federal agencies working together to
  identify and coordinate policy views for the Federal aviation community and to foster safe, efficient, and effective Federal
  aviation operations.
2
  Testimony given on November 20, 2003, GAO-04-285T, “Efforts to Measure Effectiveness and Strengthen Security
  Programs.”
3
  Department of Homeland Security Advisory 03-019 dated May 1, 2003, “Security Information for General Aviation
  Pilots/Airports.”
USDA/OIG-A/33601-1-AT                                                                                                Page ii
                   the agency’s aircraft security; set basic standards for securing aircraft at the
                   various airports, airstrips, and temporary duty sites; and serve as a formal
                   security program for the agency. An overall risk assessment should be made
                   concerning the vulnerability of APHIS aircraft and site assessments should be
                   performed utilizing guidelines provided by ICAP. To establish acceptable
                   security for APHIS aircraft, we recommend that, once the formal risk
                   assessments are performed, the agency ensure that all security issues
                   identified during the assessments are appropriately addressed.

Agency Response    In its September 3, 2004, written response to the draft report, APHIS
                   concurred with the findings and recommendations in the report, and provided
                   timeframes for completing security procedures and risk assessments.

OIG Position       We agree with management decision for Recommendations Nos. 1 and 2. To
                   achieve management decision for Recommendation No. 3, we will need the
                   estimated timeframes for completing the implementation of security
                   measures at all sites.




USDA/OIG-A/33601-1-AT                                                                      Page iii
Abbreviations Used in this Report

APHIS
  Animal and Plant Health Inspection Service ........................................................................................ 1
ARUMT
  Aircraft Resource and Utilization Management Team ......................................................................... 4
FAA
  Federal Aviation Administration .......................................................................................................... 3
GAO
  Government Accountability Office....................................................................................................... 3
GSA
  General Services Administration .......................................................................................................... 5
ICAP
  Interagency Committee for Aviation Policy ......................................................................................... 5
OIG
  Office of Inspector General .................................................................................................................. 9
PPQ
  Plant Protection and Quarantine ........................................................................................................... 1
TSA
  Transportation Security Administration ............................................................................................... 1
USDA
  U.S. Department of Agriculture............................................................................................................ 1
WS
  Wildlife Services................................................................................................................................... 1




USDA/OIG-A/33601-1-AT                                                                                                                        Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in this Report .......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1.           Aircraft Security Controls......................................................................................... 3

        Finding 1             APHIS Had Not Issued Written Policies and Procedures for Establishing
                              Risk-Based Security for Mission Aircraft ............................................................... 3
                                  Recommendation No. 1.................................................................................... 6
                                  Recommendation No. 2.................................................................................... 7
        Finding 2             Security Measures Taken for APHIS Aircraft Were Not Always
                              Appropriate to the Levels of Risk at the Storage Locations.................................... 8
                                  Recommendation No. 3.................................................................................. 11

Scope and Methodology........................................................................................................................ 12

Exhibit A - Agency Response ............................................................................................................... 13




USDA/OIG-A/33601-1-AT                                                                                                                     Page v
Background and Objectives
Background         The Animal and Plant Health Inspection Service (APHIS) is responsible for
                   protecting and promoting U.S. agricultural health, administering the Animal
                   Welfare Act, and carrying out wildlife damage management activities. It
                   protects America’s animal and plant resources by safeguarding them from
                   exotic invasive pests and diseases, monitoring and managing agricultural
                   pests and diseases existing in the United States, resolving and managing
                   foreign trade issues related to animal and plant health, and ensuring the
                   humane care and treatment of animals.

                   APHIS is organized into six program offices: Animal Care, Biotechnology
                   Regulatory Services, International Services, Plant Protection and Quarantine
                   (PPQ), Veterinary Services, and Wildlife Services (WS). In the United
                   States, WS and PPQ utilize aircraft for (1) pest control programs, such as
                   responding to emergency pest outbreaks and dispersal of sterile insects to
                   control pest populations; (2) wildlife management and predator control
                   programs; and (3) research and development projects. The agency uses
                   owned, leased, or borrowed aircraft to accomplish its mission.

                   WS has 28 aircraft at 26 locations in 12 Western states including 17 Piper
                   Super Cubs, 7 Aviat Huskys, and 4 helicopters. WS leases hangar space at
                   general aviation airports for 27 of 28 aircraft, and 1 aircraft is stored on a
                   private ranch. The 28 aircraft are used for wildlife management and predator
                   control programs.

                   PPQ has seven aircraft at Moore Air Base in Mission, Texas. Moore Air
                   Base is owned and operated by the U.S. Department of Agriculture (USDA).
                   The 7 aircraft stored in one hangar include 4 Cessna 206’s, 2 Cessna
                   A188B’s with sprayers, and 1 Beechcraft Barron Model 58 aircraft. All of
                   the aircraft have been configured to support current pest control programs,
                   such as responding to emergency pest outbreaks and dispersal of sterile
                   insects to control pest populations. Typical modifications include equipment
                   to release sterilized fruit flies and chemical sprayers. The Cessna 206’s have
                   a useful capacity between 400 to 1100 pounds. The Cessna A188B’s have a
                   built-in delivery system, with a capacity of 280 gallons of wet or dry
                   chemicals, and can easily be sprayed into a 75ft spray pattern or dumped in
                   mass quantity. The Baron has a useful capacity between 400 to 800 pounds.
                   These aircraft support PPQ’s missions across the entire United States.

                   The Transportation Security Administration (TSA) is responsible for security
                   over all modes of transportation within the United States. Established by the
                   Aviation and Transportation Act (Public Law 107-71) of November 2001, the
                   TSA assesses threats to transportation and develops policies, strategies and
                   plans for dealing with those threats. TSA communicates to both commercial

USDA/OIG-A/33601-1-AT                                                                     Page 1
                   and Government providers of transportation largely in the form of advisories.
                   TSA moved from the Department of Transportation to the Department of
                   Homeland Security in March 2003.

Objectives         The objectives of the survey were to evaluate whether APHIS had established
                   security controls sufficient to ensure that its owned, leased, or borrowed
                   aircraft were protected from theft or unauthorized use; and whether the
                   agency had provided guidance to its staff for ensuring aircraft were secure at
                   all times.




USDA/OIG-A/33601-1-AT                                                                     Page 2
Findings and Recommendations
Section 1.   Aircraft Security Controls

                     We found that APHIS had not established written policies and procedures for
                     securing mission aircraft and WS had not used formal site risk assessments to
                     identify and address security issues at aircraft storage facilities. Because of
                     the lack of standard policies and procedures and formal site assessments,
                     security measures implemented by APHIS were not sufficient to ensure that
                     aircraft were protected from theft and possible use as terrorist weapons.

                     Following the September 11, 2001, multiple terrorist attacks against U.S.
                     civil air carriers, the World Trade Center, and the Pentagon, the Federal
                     Aviation Administration (FAA) advised of the potential for additional
                     terrorist attacks involving civil and general aviation aircraft.            In
                     October 2001, FAA sent security guidance to all public-use airports and
                     airfields asking members of the general aviation community to observe good
                     physical security and to report suspicious persons, activities, and operations
                     around airports. FAA advised that terrorists, who are no longer able to hijack
                     commercial airliners because of increased security at commercial airports,
                     might turn to general aviation airports and aircraft to conduct operations. To
                     prevent unauthorized use of aircraft, each owner/operator should take steps
                     appropriate to the specific type of aircraft to secure it when unattended.



Finding 1            APHIS Had Not Issued Written Policies and Procedures for
                     Establishing Risk-Based Security for Mission Aircraft

                     APHIS had not established written security policies and procedures sufficient
                     to secure its 35 owned and leased aircraft stored at small or private storage
                     facilities. The agency was waiting for USDA to issue guidance before
                     establishing and implementing policies and procedures of its own.
                     Meanwhile, at each storage location, WS employees determined what
                     security measures were needed based on an individual understanding of need
                     rather than on a consistent, unbiased assessment of the actual risks posed to
                     the aircraft. In the absence of a concerted agency policy guiding risk-based
                     security measures, the security that was implemented at WS aircraft locations
                     was inconsistent and inadequate (see Finding No. 2).

                     Policies and Procedures Are the First Line of Defense

                     The Government Accountability Office’s (GAO) Standards for Internal
                     Control in the Federal Government, dated November 1999, states that
                     effective internal controls through written policies and procedures serve as
                     “the first line of defense in safeguarding assets” and provide consistent

USDA/OIG-A/33601-1-AT                                                                        Page 3
                   actions to help mitigate weaknesses or vulnerabilities. Although APHIS had
                   developed an Aircraft Operations Manual, dated 1999, that addresses general
                   aircraft policy, safety, administration, international services, contractor
                   performance, and accident reporting and investigations, the manual did not
                   address securing the aircraft.

                   APHIS also established an Aircraft Resource and Utilization Management
                   Team (ARUMT) in 1993 to address the agency’s aircraft policies and
                   procedures. The ARUMT team (consisting of three aviation managers from
                   International Services, WS, and PPQ, and the APHIS Aviation Program
                   Manager) meets at least twice a year to discuss aviation policy, procedures,
                   and operations and to update the manual whenever necessary to conform to
                   Federal aircraft regulations. Because there were no regulations specific to
                   securing general aviation aircraft, ARUMT was waiting for USDA to issue
                   formal guidance.

                   The Department issued the Integrated Physical Security Standards and
                   Procedures Handbook on November 14, 2003. Chapter 2, on aviation
                   security, disseminates procedures for mitigating risks and threats associated
                   with USDA aviation operations. APHIS aviation officials were not aware of
                   the formal issuance of the handbook until May 4, 2004, because they had not
                   received notice from the Department. The ARUMT team leader pointed out
                   that the Department issued the physical security procedures as a handbook
                   rather than as a manual, and concluded that this was likely done because the
                   disparity among USDA agencies would make it difficult to issue one set of
                   requirements. He acknowledged that there were security measures outlined
                   in the departmental guidance that could be used in establishing security for
                   APHIS aircraft. However, he felt that much of the guidance could not be
                   adapted to general aviation airports. APHIS is currently working on a
                   manual to address security for all the agency’s assets, but has not begun
                   working on the section for aircraft security. The agency plans to complete
                   the full security manual by December 31, 2004.

                   Neither WS nor PPQ had written security policies and procedures in place.
                   WS had no written guidance for securing its 28 mission aircraft at official
                   duty stations and offsite locations. PPQ officials stated they were drafting
                   policies and procedures to address facility and aircraft security at the airbase
                   storing its seven aircraft. We also noted that neither WS nor PPQ had
                   established procedures for securing aircraft while at temporary work
                   locations or for reporting to APHIS headquarters or responsible officials such
                   incidents as missing aircraft, unauthorized entry, threatening telephone calls,
                   or vandalism.




USDA/OIG-A/33601-1-AT                                                                       Page 4
                               Policies Need to Establish Risk-Based Security Measures

                               GAO advocates a risk management approach to guide Federal programs to
                               better assess aviation security by analyzing threats and vulnerabilities,
                               identifying corrective actions to take, and mitigating weaknesses that could
                               be exploited. Its standards on internal control states that management needs
                               to comprehensively identify risks and that a precondition to assessing risk is
                               the establishment of clear, consistent agency objectives. In its March 30,
                               2004, testimony before Congress, GAO noted that TSA was developing a
                               risk-based, self-assessment tool for general aviation airports.4

                               Federal agencies already have such a risk-based, self-assessment tool. On
                               January 12, 2001, the Interagency Committee for Aviation Policy5
                               (ICAP) published a Guide for the Conduct of Aviation Resources
                               Management Surveys, which was designed in part to assist agencies in
                               tailoring aircraft security programs to their particular needs. ICAP issued a
                               subsequent draft aviation guide on May 7, 2003. Both guides address critical
                               risk areas such as restricting access to aircraft, installing aircraft locking
                               devices to protect the aircraft during overnight trips away from the home
                               base, establishing protocols for reporting incidents to proper officials,
                               transient aircraft security, and background checks of employees.

                               Because of APHIS’ lack of standard policies and procedures, formal risk
                               assessments had not been performed at all individual WS aircraft storage
                               sites, and appropriate actions had not been taken to ensure that the aircraft
                               were secure. After September 11, 2001, WS conducted informal security
                               reviews at individual aircraft sites and implemented some security measures.
                               Local officials or the aviation manager conducted the reviews, but did not
                               document them. However, the reviews were not performed with the aid of
                               any specific guidance, and security was generally left up to employees at the
                               different sites, resulting in inconsistencies from location to location. PPQ
                               conducted a comprehensive risk assessment and implemented many of the
                               recommendations such as installing alarms sensitive to glass breaking,
                               connecting alarms to the guard shack, and installing low-light closed circuit
                               television cameras.

                               Additionally in May 2003, APHIS performed a cursory review of aircraft
                               security at all sites as part of a survey of the security over its infrastructure.
                               This review included collecting information about the facility—the type of
                               access road, the type of area the facility was in, the construction of the
                               facility, its parking, perimeter security, emergency planning, security guards,

4
    Testimony given on March 30, 2004, GAO-04-592T, “Improvement Still Needed in Federal Aviation Security Efforts.”
    This was followup to November 20, 2003, testimony.
5
    Established by the General Services Administration (GSA) in 1989, ICAP is made up of 18 Federal agencies working
    together to identify and coordinate policy views for the Federal aviation community and to foster safe, efficient, and
    effective Federal aviation operations.
USDA/OIG-A/33601-1-AT                                                                                             Page 5
                             and security systems, and the types of threats it received in the past.
                             However, there was no risk-based analysis performed to determine
                             appropriate security measures. The APHIS survey questionnaire did not
                             inquire about aircraft entry/access, identification badges, background
                             investigations, security training, site security officers, security
                             roles/responsibilities, access authorization lists, aircraft locking procedures
                             during overnight trips, aircraft locking devices, key control, handling security
                             alarm codes and responses; refueling practices, security of fuel tanks trucked
                             to remote sites for mission refueling, and reporting incidents. These activities
                             also need assessing. Careful site-by-site evaluations are needed. After APHIS
                             completes and documents security site assessments identifying threats, risks,
                             vulnerabilities, and targets, security plans identifying recommended security
                             countermeasures should be developed.

                                                                 *    *    *

                             In testimony given to Congress on November 20, 2003, GAO stated that TSA
                             had taken only limited action to improve security over general aviation,
                             leaving it far more vulnerable than commercial aviation. In May 2003, the
                             Department of Homeland Security issued an advisory6 to general aviation
                             pilots and airports to secure unattended aircraft to prevent its unauthorized
                             use and report unusual or suspicious activities. The advisory warned that
                             terrorists might use general aviation aircraft to mount attacks due to that
                             aircraft’s availability, its less stringent protective measures, and its
                             destructive potential.

                             It is important that APHIS consider security as a major part of its procedures
                             and responsibilities regarding its aviation operations. As such, APHIS should
                             perform an overall assessment of risks pertaining to its mission aircraft and
                             incorporate appropriate controls into standard procedures to ensure that
                             aircraft are secure.

Recommendation No. 1

                             Develop written policies and procedures for the security of aircraft based on
                             an overall risk assessment of vulnerabilities related to theft or unauthorized
                             use. The policies and procedures should provide a consistent and unbiased
                             tool to appraise all aspects of the agency’s aircraft security; set basic
                             standards for securing aircraft at the various airports and airstrips as well as
                             temporary duty sites; and serve as a formal security program for the agency.




6
    Department of Homeland Security Advisory 03-019 dated May 1, 2003, “Security Information for General Aviation
    Pilots/Airports.”
USDA/OIG-A/33601-1-AT                                                                                    Page 6
                   Agency Response. In its September 3, 2004, response, APHIS concurred
                   with the recommendation:

                          An overall risk assessment format will be coordinated and
                          developed through APHIS Security Specialist * * * office by
                          December 31, 2004. Policies and procedures will be drafted
                          by June 2005 to provide consistent, unbiased appraisal of
                          each location’s security to enhance standardization of
                          security measures. Implementation of security items not
                          already in place according to written procedures and basic
                          standards will begin in September 2005 after completion of
                          physical risk assessments. Many basic security measures
                          have been implemented such as propeller locks and security
                          systems and other means of immobilizing the aircraft. Written
                          policy should provide standardization or consistency. An
                          Aviation Security Officer will be designated by the WS
                          Aviation Program and the APHIS Security Team who will
                          work in coordination with the APHIS Security Team Leader
                          and the WS National Aviation Program Manager ensuring
                          basic security measures have been implemented and are being
                          maintained. This position should be filled by November 1,
                          2004. A formal security program will be drafted by the WS
                          Aviation Program using ICAP as guidance and approval.

                   OIG Position. We accept management decision for this recommendation.

Recommendation No. 2

                   Ensure that formal risk assessments are performed at all WS aircraft sites
                   using the ICAP guidance.

                   Agency Response. In its September 3, 2004, response, APHIS concurred
                   with the recommendation:

                          WS National Aviation Program and the APHIS Security Team
                          Leader will designate a collateral duty Aviation Security
                          Officer by November 1, 2004. This individual will receive
                          appropriate security training to develop and conduct formal
                          risk assessments.         The designated security officer’s
                          responsibility will be to perform formal risk assessments using
                          ICAP as guidance and implement risk assessment
                          recommendations.

                   OIG Position. We accept management decision for this recommendation.


USDA/OIG-A/33601-1-AT                                                                       Page 7
Finding 2                       Security Measures Taken for APHIS Aircraft Were Not Always
                                Appropriate to the Levels of Risk at the Storage Locations

                                Security measures taken at various sites were not always adequate to ensure
                                that aircraft were protected from theft. This occurred because APHIS had not
                                performed formal risk assessments at WS sites housing 28 aircraft and
                                because some recommendations from a formal risk assessment at the USDA
                                base housing 7 PPQ aircraft were not implemented. Additionally, APHIS
                                officials were concerned about whether the agency had funds to pay for
                                security enhancements. The absence of security measures increases the risk
                                that the agency’s small planes or helicopters could be stolen and used as
                                terrorist weapons.

                                Physical security planning is not intended to make a facility impenetrable.
                                The goal is to make the commission of a crime more difficult and time
                                consuming and, therefore, unattractive to any potential criminal or terrorist.
                                An environment should be created that utilizes access controls and visible
                                security devices, such as alarms, to make the aircraft unattractive to
                                criminals. Anything that increases the likelihood of a criminal’s actions
                                being observed or reported is a deterrent, and physical barriers will help delay
                                a crime. Additionally, early detection increases the odds that a criminal will
                                be apprehended and that a terrorist act will be prevented.7

                                To perform our review, we sent questionnaires to all APHIS aircraft sites to
                                obtain information concerning security at the individual locations. Using
                                information in the questionnaires, we judgmentally selected eight WS sites
                                that housed nine aircraft and provided a variety of security conditions. We
                                found that WS aircraft were not always equipped with appropriate locking
                                mechanisms, access to APHIS aircraft was not always restricted, and
                                intrusion devices were not always effectively utilized. For PPQ aircraft, we
                                found that some of the needed security measures recommended in a formal
                                risk assessment report had not been implemented.

                                Aircraft Were Not Always Equipped With Appropriate Locking Mechanisms

                                APHIS aircraft were not always equipped with adequate protective
                                equipment such as locks for throttles, control columns, propellers, wheels, or
                                fuel tanks that provide low-cost, effective theft deterrents.         Of the
                                28 WS aircraft, 24 were periodically away from their duty locations
                                overnight and only 1 had an additional security mechanism. APHIS did not
                                always have access to secure hangars while at remote locations.           For
                                example, one aircraft was tied down only with a rope during temporary
                                storage at work sites and had no locking devices. USDA’s handbook on


7
    Analysis contained in the draft ICAP Aviation Security Guide, dated May 7, 2003.
USDA/OIG-A/33601-1-AT                                                                                    Page 8
                                 aviation security states that security devices, such as those listed above,
                                 should be used to the fullest extent possible without hampering operations.

                                 Access to Aircraft Was Not Always Restricted

                                 We found that access to APHIS aircraft was not always restricted. Of the
                                 28 WS aircraft, 9 were not in individual hangars. The use of individual
                                 hangars and visible identification badges helps to ensure that only authorized
                                 personnel have access to the aircraft.

                                 For example, the hangar at one site was attached to the airport’s main office,
                                 which had a constant flow of people. The rest rooms for the airport were
                                 located in the hangar, and no identification badges were required for the area.
                                 The airplane was stored in the shared, open-bay hangar with five other
                                 privately owned aircraft (see figures 1 and 2). Typically, the hangar was
                                 secured behind locked hangar doors at night. However, the hangar was
                                 unlocked for 2 weeks during the summer to provide restroom access to a
                                 group of glider enthusiasts.8 The APHIS aircraft did not require an ignition
                                 key, and was vulnerable to theft.




                                       Figure 1 – The Office of Inspector General (OIG) photo of APHIS
                                       aircraft in a shared hangar.




8
    Gliders refer to fixed-winged aircraft without engines.
USDA/OIG-A/33601-1-AT                                                                                    Page 9
                               Figure 2 - OIG photo of private aircraft in the same, shared hangar.

                               At another location, the aircraft was secured inside a mechanic’s workshop
                               hangar with unrestricted access. An APHIS official stated that better security
                               was needed and the agency had “entered into the long process” of working
                               with the airport and GSA to obtain a more secure hangar. We made a
                               followup contact with the official on April 19, 2004, and were told that he
                               understood that a moratorium had been placed on new construction and there
                               would be no funds for the new hangar.

                               Intrusion Devices Were Not Always Effectively Utilized

                               APHIS did not always utilize intrusion devices, such as alarm systems and
                               cameras that were appropriate to the conditions at the airports. Visible
                               intrusion devices, such as alarms, not only make the aircraft unattractive to
                               criminals, they provide for early detection of unauthorized entry and increase
                               the odds that a criminal will be apprehended and that a terrorist act will be
                               prevented.9 Security alarms were installed in hangars storing only 12 of
                               WS’ 28 aircraft, and only 9 of these alarms were connected to local law
                               enforcement or monitoring services. Security cameras were not utilized at
                               locations storing 26 of the 28 aircraft.

                               For example, the aircraft hangar at one site had an alarm installed, but it was
                               not being used. An APHIS employee indicated that there had been no
                               incidents at the agency’s hangar. However, other hangars at the airport had
                               been broken into. There were no security guards stationed at the airport, and
                               no way of timely alerting authorities of intrusions into the aircraft hangar.
                               The official also indicated that the airplane was fueled after each flight,
                               leaving it with a full tank during non-business hours.

                               The use of alarm systems at various sites was also inconsistent. For example,
                               one site that had no fences or barriers, no security guards on the premises,

9
    Analysis contained in the draft ICAP Aviation Security Guide, dated May 7, 2003.
USDA/OIG-A/33601-1-AT                                                                                 Page 10
                   and no video cameras, and also had no security alarm. In contrast, another
                   site with the same security conditions had motion detectors and sensing
                   devices that activate an alarm monitored by local law enforcement.

                   A WS official stated that APHIS used homeland security funds to install
                   alarm and monitoring systems. However, he expressed concerns that
                   homeland security funds were not provided for continued monitoring services
                   and that it would be necessary to use general APHIS appropriations to
                   maintain the services. He was unsure of the future availability of funds for
                   monitoring.

                   PPQ Implemented Most of the Recommendations from a Comprehensive
                   Security Review

                   PPQ conducted a comprehensive risk assessment and implemented most of
                   the recommended actions such as installing alarms sensitive to glass
                   breaking, connecting alarms to the guard shack, and installing low-light
                   closed circuit television cameras.          PPQ had not implemented
                   recommendations to install security bars on the windows and replace the
                   main entry door with a security door having a card reader and electronic lock.
                   These recommendations were not implemented because of lack of funding.

Recommendation No. 3

                   Ensure that all security issues identified during formal risk assessments are
                   appropriately addressed and that effective security measures are
                   implemented.

                   Agency Response. In its September 3, 2004, response, APHIS concurred
                   with the recommendation:

                          As stated above, the WS National Aviation Program will
                          designate a collateral duty Aviation Security Officer. This
                          individual will receive appropriate training particular to
                          aircraft and aircraft location security, conducting risk
                          assessments, and identifying security risks. Implementation of
                          security measures will be coordinated throughout the
                          identified State programs with the WS National Aviation
                          Manager, APHIS Security Team Leader, respective State
                          Directors, and aviation field personnel.

                   OIG Position. We agree with the proposed action. However, in order to
                   reach management decision, we will need the estimated timeframes for
                   completing the implementation of security measures at all sites.



USDA/OIG-A/33601-1-AT                                                                    Page 11
Scope and Methodology
                   We performed the fieldwork between April 2003 and May 2004. We visited
                   APHIS headquarters and conducted interviews with APHIS officials to gain
                   working knowledge of APHIS aviation operations and to obtain and review
                   aircraft security assessments, plans, reports, polices and procedures. We
                   e-mailed a security questionnaire to officials responsible for the 28 WS and
                   7 PPQ mission aircraft to obtain information about the security at the
                   locations, aircraft security assessments, plans, reports, policies, and
                   procedures. We also judgmentally selected and visited sites for 9 of the
                   28 WS mission aircraft. We visited those sites because the aircraft security at
                   those sites provided a variety of security conditions. We conducted security
                   reviews and interviews at those sites during the week of June 16, 2003.

                   In order to complete our objectives, we performed the following steps.

                   •    Reviewed policies and procedures related to security of aircraft and their
                        storage.

                   •    Reviewed external and internal reports addressing the aircraft security
                        and related matters.

                   •    Interviewed APHIS office officials.

                   •    Conducted inventory and physical security reviews at judgmentally
                        selected sites.

                   We conducted this audit in accordance with generally accepted government
                   auditing standards.




USDA/OIG-A/33601-1-AT                                                                    Page 12
Exhibit A - Agency Response
                              Exhibit A - Page 1 of 3




USDA/OIG-A/33601-1-AT                      Page 13
Exhibit A - Agency Response
                              Exhibit A - Page 2 of 3




USDA/OIG-A/33601-1-AT                      Page 14
Exhibit A - Agency Response
                              Exhibit A - Page 3 of 3




USDA/OIG-A/33601-1-AT                      Page 15
